U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

        DIVISION OF TOURISM,
DEPARTMENT OF ECONOMIC DEVELOPMENT
         AND AGRICULTURE,
  GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO. 95-I-41
               OCTOBER 1994
             United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL.




MEMORANDUM

TO:                          The Secretary

FROM:                        Acting Inspector General

SUBJECT SUMMARY:             Final Audit Report for Your Information - “Division of
                             Tourism, Department of Economic Development and
                             Agriculture, Government of the Virgin Islands”
                             (No. 95-I-41)

DISCUSSION: We concluded that the Department of Economic Development and
Agriculture needed to (1) improve its oversight of the offshore tourism offices and
firms contracted to advertise and promote tourism in the Virgin Islands and (2) use
a greater level of competition in the award of advertising and promotional contracts.

We recommended that the Governor of the Virgin Islands ensure that the
Department (1) requires the offshore offices to submit monthly financial and activity
reports and employees to submit travel vouchers to support travel advances on a
timely basis, (2) reconciles and monitors the revenues and expenditures of the
tourism offices on a regular basis, (3) develops procedures so that promotional
contractors comply with provisions of their contracts, and (4) implements contracting
procedures for promotional contracts that incorporate competitive procurement
procedures.

Based on the response to the draft report from the Governor of the Virgin Islands,
we considered five of the report’s nine recommendations resolved and implemented.
The Governor was requested to provide additional information for the remaining
recommendations.




                                               Joyce N. Fleischman

Attachment

Prepared by: Marvin Pierce
Extension: 208-4252
           United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Headquarters Audits
                                 1550 Wilson Boulevard
                                        Suite 401
                                  Arlington, VA 22209



Honorable Alexander A. Farrelly
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Dear Governor Farrelly:

Subject: Final Audit Report on the Division of Tourism, Department of Economic
         Development and Agriculture, Government of the Virgin Islands (No. 95-I-41)

This report presents the results of our review of the operations of the Division of
Tourism of the Department of Economic Development and Agriculture. The
objective of the audit was to determine whether the Department ensured that (1)
funds allocated to the Division of Tourism were being used efficiently and in
accordance with applicable regulations and (2) the activities of the Division were
being carried out in a manner that enhanced the tourism industry in the Virgin
Islands.

We concluded that the Department of Economic Development and Agriculture
needed to improve its oversight of the Division of Tourism and its offshore tourism
offices and promotional contracts and use a greater level of competition in the award
of promotional contracts. Specifically, the Department did not:

      - Require offshore offices to submit monthly expenditure and activity reports,
review the reports that were submitted in order to ensure that over $900,000 made
available to the offshore offices was properly accounted for, and require employees
to submit travel vouchers to account for $8,500 in travel advances.

      - Review contractors’ invoices to ensure that claimed costs were reasonable
and allowable under the contracts, have supporting documentation for $1.3 million
reported by the Department of Finance as having been paid to one contractor, or
periodically solicit and evaluate competitive proposals before awarding repeated
follow-on contracts for advertising and other promotional activities.

The September 23, 1994, response (Appendix 1) to the draft report from the
Governor of the Virgin Islands expressed concurrence with seven of the report’s nine
recommendations. Based on the response, we consider five of the recommendations
resolved and implemented and requested additional information for four
recommendations (see Appendix 2).
The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, actions taken
to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

In view of the above, please provide a response to this report by December 16, 1994.
The response should provide the information requested in Appendix 2. A copy of
your response should also be provided to our Caribbean Regional Office.

                                              Sincerely,



                                              Marvin Pierce
                                              Acting Assistant Inspector General
                                               for Audits
                                                                                                       i




                                        CONTENTS
                                                                                               Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       OBJECT’IVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . 3

      A. OFFSHORE TOURISM OFFICES . . . . . . . . . . . . . . . . . . . . . . . . 3
      B. PROMOTIONAL CONTRACTS . . . . . . . . . . . . . . . . . . . . . . . . . 7

APPENDICES

       1. GOVERNOR OF THE VIRGIN ISLANDS RESPONSE . . . . . . . 12
       2. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . 17
                              INTRODUCTION
BACKGROUND

Under the Government Reorganization and Consolidation Act of 1987, the former
Departments of Commerce and Agriculture were merged to form the Department
of Economic Development and Agriculture. One of the four administrative units of
the new department is the Division of Tourism, which is primarily responsible for the
promotion of the Virgin Islands in the tourism market.

The main offices of the Division of Tourism are located on St. Thomas, with a small
visitor information center located on St Croix. There are seven offshore offices
located in New York, New York; Washington, D. C.; Atlanta, Georgia; Miami,
Florida; Chicago, Illinois; Los Angeles, California; and San Juan, Puerto Rico.
These offshore offices promote tourism in the Virgin Islands within their
geographical regions. The Division has a staff of 49 persons, including 25 who are
stationed in the offshore offices.

In addition to maintaining personal contacts with travel industry representatives
through its offshore offices, the Division’s primary means of promoting tourism in
the Virgin Islands is by a series of professional service contracts for advertising,
publicity, promotion, and public relations. Contracts valued at $12.2 million and
$10.7 million were awarded in fiscal years 1992 and 1993, respectively. These
contracts were funded from the Tourism Advertising Revolving Fund.

The Division’s General Fund operating budget was $2.6 million for fiscal year 1992
and $2.3 million for fiscal year 1993. Hotel occupancy taxes deposited into the
Tourism Advertising Revolving Fund totaled $8.4 million in fiscal year 1992 and
$10.3 million in fiscal year 1993.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Department of Economic
Development and Agriculture ensured that (1) funds allocated to the Division of
Tourism were being used efficiently and in accordance with applicable regulations
and (2) the activities of the Division were being carried out in a manner that
promoted the tourism industry in the Virgin Islands. The scope of the audit included
transactions and activities of the Division during fiscal years 1992 and 1993 and the
first quarter of fiscal year 1994.

Our review was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances.




                                          1
We limited the evaluation of internal controls to the extent necessary to accomplish
the audit objective. The internal control weaknesses identified were in the areas of
oversight of the offshore offices, the award of contracts, and the monitoring of
contractors’ performance. These weaknesses are discussed in the Findings and
Recommendations section of this report. The recommendations, if implemented,
should improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

In March 1986, the Office of Inspector General issued the audit report “Funds
Allotted to the Division of Tourism, Virgin Islands Department of Commerce” (No.
V-TG-VIS-24-85).      The report noted deficiencies in the procedures used for
evaluating and awarding professional service contracts, the internal controls over
payments to one contractor, and the accounting controls over cash advances made
to offshore offices. Our current review disclosed problems similar to those reported
in 1986.




                                         2
              FINDINGS AND RECOMMENDATIONS
A. OFFSHORE TOURISM OFFICES

The financial management functions of the Department of Economic Development
and Agriculture’s offshore tourism offices were not being carried out efficiently.
Specifically, monthly expenditure and activity reports were not being submitted timely
or reviewed, cash advances were not routinely reconciled by the Office of
Administration and Management, and employees did not submit travel vouchers for
official travel on a timely basis. The Department’s Office of Administration and
Management was responsible for coordinating the budgetary, accounting, and
personnel functions of the local and off-island tourism offices. However, the
Department could not ensure that its offshore offices effectively used the $900,000
allotted to them during fiscal years 1992 and 1993 and the first quarter of fiscal year
1994. Additionally, travel vouchers were not submitted by offshore office employees
to liquidate travel advances totaling $8,500.

Monthly Reports

The Department did not ensure that the offshore tourism offices submitted required
monthly reports of expenditures and promotional activities on a timely basis. Further,
when it did receive reports, the Department did not use the reports to monitor the
activities of the off-shore offices. As a result, the Department could not ensure that
funds of $900,000 made available to the offshore offices during fiscal years 1992 and
1993 and the first quarter of fiscal year 1994 were being used efficiently and
economically and in accordance with established rules and regulations. Although the
Office of Administration and Management monitored its offshore offices through
annual on-site reviews, we believe that the timely submission and review of the
offshore offices’ monthly expenditure reports would improve internal controls over
cash advances and enable the Department to ensure that Government funds were
not being misused.

In addition to the expenditure reports, the offshore offices were required to submit
activity reports by the last day of each month. For the period included in our review
(October 1991 to December 1993), each of the seven offshore offices should have
submitted 27 monthly activity reports, for a total of 189 reports required from all
seven offices. However, 79 of the 189 required reports had not been submitted, and
none of the seven offshore offices had submitted all required reports.

The activity reports provide details regarding the work performed by each offshore
office with travel agents, tour operators, airlines, cruise lines, hotel representatives,
and trade and consumer groups. The activity reports also describe the offices’
participation in trade shows and other promotional activities and attendance at
meetings and conferences. Because the activity reports were not always submitted,
the Department could not ensure that the offices were effectively contributing to the


                                            3
promotion of the Virgin Islands as a tourist destination. In a 1993 memorandum to
one offshore office concerning the monthly activity reports, the Commissioner of
Economic Development and Agriculture had urged submission of the reports on a
timely basis in order to fully realize the contribution that each office made toward
the overall promotional programs.

Cash Advances

Revenues and expenditures of the offshore tourism offices were not reconciled at
least quarterly to ensure that all revenues received were accounted for and
expenditures were limited to the extent of available funds. During fiscal years 1992
and 1993 and the first quarter of fiscal year 1994, the seven offshore offices received
quarterly allotments totaling $900,000 for regular operating expenses. However, the
Director of Administration and Management said that the quarterly allotments were
not sufficient to meet actual operating expenses. For example:

          The Chicago office received operating expense allotments totaling $50,500
in fiscal year 1993 but incurred expenses totaling more than $106,000.

      - The Los Angeles office received operating expense allotments totaling
$81,000 in fiscal year 1993 and the first quarter of fiscal year 1994 but incurred
expenses totaling more than $84,000.

          The New York office received operating expense allotments totaling $92,471
in fiscal year 1993 and the first quarter of fiscal year 1994 but incurred expenses
totaling more than $175,000.

In each case, the difference between quarterly allotments and total expenditures was
covered by (1) special cash advances from the Department for trade shows and other
promotional activities and (2) funds from private tourism-related organizations to
help defray the costs of such activities as familiarization tours to the Virgin Islands
by travel agents. Additionally, during fiscal year 1993, the New York office received
more than $111,000 from the Rockefeller Center Management Corporation for
interior design of the New York office’s new space.

The Department did not review the expenditures made by the offshore offices against
special cash advances and private funds because, according to the Director of
Administration and Management, these amounts were reconciled by the offices
themselves when the monthly expenditure reports were prepared and submitted.
However, because the Department did not routinely review the expenditure reports
submitted by the offshore offices, the extent to which these reconciliations were
complete and accurate and the extent to which quarterly allotments were sufficient
to meet operating expenses were not known.             In our opinion, increased
Departmental review and oversight of the offshore offices’ expenditure reports, cash
advances, and funds received from private tourism-related organizations could
encourage the offices to limit costs to the amounts available through their regular
quarterly allotments.

Travel Advances

Travel advances were issued to the employees of the offshore offices to defray travel
expenses within and outside their geographic regions. Our review disclosed that the
New York, Los Angeles, and Chicago offices did not submit travel vouchers within 5
days after completion of travel, as required by travel regulations (Executive
Order 310-1989) for the Government Executive Branch. For fiscal year 1993, we
identified, at three of the tourism offices, 63 travel advances, totaling $23,100, that
had been outstanding from 2 to 16 months.

The Director of the Office of Administration and Management told us that her staff
of five employees could not provide significant oversight of the offshore tourism
offices in addition to performing their duties related to the other units within the
Department of Economic Development and Agriculture.

Recommendations

We recommend that the Governor of the Virgin Islands:

      1. Ensure that the Commissioner of Economic Development and Agriculture
requires the offshore offices to submit required monthly expenditure and activity
reports.

      2. Ensure that the Commissioner of Economic Development and Agriculture
requires the Office of Administration and Management to review the offshore
tourism offices’ monthly expenditure reports, reconcile the revenues from all sources
with the total expenditures of each office, and insist that the offices control their
expenditures and stay within the limits of available funds.

      3. Ensure that the Commissioner of Economic Development and Agriculture
requires employees of the offshore tourism offices to submit travel vouchers in
accordance with Executive Order 310-1989 in order to account for travel advances
in a timely manner.

      4. Ensure that the Department of Economic Development and Agriculture
develops a plan to provide assurance that the Department’s oversight responsibilities
related to the offshore tourism offices are administered effectively.

Governor of the Virgin Islands Response

The September 23, 1994, response (Appendix 1) to the draft report from the
Governor of the Virgin Islands concurred with Recommendations 1-4.
       Recommendation 1. The response stated that when certain offshore tourism
offices do not submit monthly reports on a timely basis, the Director of Tourism
“reminds” the office managers of the reporting requirements.

      Recommendation 2. The response stated that when the allotments to the
offshore tourism offices are not sufficient to meet the offices’ operating expenses,
cash advances are provided from the Tourism Revolving Fund.

     Recommendation 3. The response stated that the Governor was directing the
Commissioner of Economic Development and Agriculture to instruct offshore office
managers about the requirement for the timely submission of travel vouchers.

      Recommendation 4. The response stated that current personnel of the Division
of Tourism have accepted responsibility for providing oversight of the financial
operations of the offshore tourism offices.

Office of Inspector General Comments

The Governor’s response was sufficient for us to consider Recommendations 1, 3,
and 4 resolved and implemented. Although the response stated concurrence with
Recommendation 2, it did not address the portion of the recommendation related
to reconciling the revenues and expenditures of each offshore tourism office (see
Appendix 3).




                                         6
B. PROMOTIONAL CONTRACTS

The Department of Economic Development and Agriculture was not monitoring
promotional contracts or ensuring that competitive proposals were solicited and
considered for promotional contracts. Title 2, Section 28(d), of the Virgin Islands
Code and Title 3, Section 335-5, of the Virgin Islands Rules and Regulations contain
the procurement requirements applicable to promotional contracts awarded by the
Department. Also, the Department did not fully utilize competitive procurement
practices for promotional contracts because the broad exemption from competition
permitted by the Virgin Islands Code was used without consideration of the more
restrictive requirements contained in the Virgin Islands Rules and Regulations.
Also, since January 1993, the Department has not provided any oversight of
promotional contracts. As a result, at least one contractor was acquiring, on behalf
of the Government, goods and services that might have been procured more
economically by the Government; supporting documents for 13 payments, totaling
$1.3 million, to one contractor were not available at the Department; and
competitive proposals were not solicited and evaluated before 53 professional service
contracts, totaling $23 million, were awarded in fiscal years 1992 and 1993.

Contract    Oversight

The Department did not provide adequate oversight of invoices submitted by
promotional contractors. Before January 1993, the Department’s Legal Counsel was
responsible for monitoring the contractors’ compliance with the provisions of their
promotional contracts. When the Legal Counsel departed in January 1993, that
responsibility was assumed by the Commissioner of Economic Development and
Agriculture.    However, contractor performance and invoices have not been
monitored since the Legal Counsel’s departure. Regarding the Department’s largest
promotional contract, we found that:

      - The contractor routinely charged the Government for express and expedited
shipping charges for promotional materials obtained by the contractor on behalf of
the Government, although the contracts specified that express mail or other express
or expedited service was not to be used except as specifically requested by the
Commissioner or his designee. The Legal Counsel had questioned charges for the
use of expedited shipping sources on many invoices; however, during fiscal years 1992
and 1993, the contractor was paid more than $128,000 for these charges.

        - The contractor acquired, on behalf of the Government, such items as
letterhead stationery for the Governor and the offshore tourism offices; business
cards for Departmental officials, employees, and a former employee under contract
with the Department; and invitations for a cocktail party sponsored by the
Department, at a cost of at least $28,000 during fiscal years 1992 and 1993, including
about $3,300 in commissions to the contractor, The Commissioner adequately
justified the acquisition of only $1,100 of the items. Therefore, we believe that to the
extent these items are required, the items should be acquired directly by the


                                           7
Government, thus saving the advertising contractor’s commission and possibly
obtaining the items at a lower cost.

      - Our review of payments, as recorded in the Financial Management System
of the Department of Finance, disclosed that 13 payments to the contractor, totaling
$1.3 million, made during December 1991 to August 1993 were not supported by
invoices or other supporting documents.

Contract Award

The Department awarded, without the benefit of competitive proposals, 28
promotional contracts, valued at $12.3 million, during fiscal year 1992 and 25
contracts, valued at $10.7 million, during fiscal year 1993. According to the Director
of Administration and Management, these procurements were exempted from the
requirements of the Government’s basic procurement law because of the uniqueness
of the professional services needed by the Department and the need to avoid the
delays caused by the “procurement bureaucracy.”

Title 2, Section 28(d), of the Virgin Islands Code does state that the provisions of
the Government’s basic procurement law (Title 31, Chapter 23, of the Virgin Islands
Code) are not applicable to the awarding of such promotional contracts.

However, Title 3, Section 335-5, of the Virgin Islands Rules and Regulations
provides that as practical, contracts for advertising, promotion, publicity, and public
relations or the operations of offices outside the Virgin Islands are to be made after
advertising and bids and that no purchases over $2,000 for these purposes are to be
made without competition except upon the Governor’s written approval.

The Department has an internal policy of designating an evaluation team, composed
of key Departmental officials and representatives from the Virgin Islands tourism
industry, to evaluate annually the performance of current promotional contractors.
Based on the team’s recommendations, the Commissioner of Economic Development
and Agriculture then decides, for each contract, whether to award a follow-on
contract to the current contractor or solicit proposals from other potential
contractors. Although established policy requires that competitive proposals be
solicited for each contract every 3 to 5 years, our review disclosed that such
proposals were solicited only if the Department was dissatisfied with a contractor’s
performance or if the current contractor, for some other reason, could not continue
to provide the needed promotional services.

By limiting the extent to which competitive proposals were solicited and evaluated,
the Department was unable to realize the benefits of competitive procurements,
which included (1) exposure to contractors who may have been able to provide better
quality services or equivalent services at a lower cost and (2) creation of an incentive
for current contractors to improve their performance and lower their costs.



                                           8
During our June 6, 1994, exit conference, the Commissioner of Economic
Development and Agriculture said that he “strongly supported” the process used by
the Department to evaluate the performance of existing promotional contractors and
to award follow-on contracts.         Regarding the contractor that has had the
Government’s primary advertising contract since 1974, the Commissioner said that
the contractor (1) had developed an advertising “signature” that was immediately
recognized as representing the Virgin Islands, (2) had repeatedly won awards for the
quality of the advertising campaign on behalf of the Virgin Islands, and (3) had
generated tourism revenues for the Virgin Islands that far exceeded the
approximately $10 million annual cost of the advertising contract. However, we
believe that the Department should solicit competition in promotional contracts to
ensure that it is receiving the best quality of services or equal services at the lowest
cost.

Recommendations

We recommend that the Governor of the Virgin Islands:

      1. Ensure that the Department of Economic Development and Agriculture
develops a plan that provides assurance that promotional contractors comply with the
provisions of promotional contracts and that contractor invoices and other
documentation are reviewed for support, reasonableness, and allowability under the
terms of the contracts.

      2. Ensure that the Commissioner of Economic Development and Agriculture
does not reimburse contractors for expedited shipping charges unless expedited
shipping has been specifically requested by the Commissioner or his representative.

       3. Ensure that the Commissioner of Economic Development and Agriculture
and other Governmental agencies, as appropriate, do not acquire items such as
letterhead stationery, business cards, and party invitations through the advertising
contractor unless the items cannot be acquired at lower cost from regular business
printing sources.

      4. Ensure that the Commissioner of Economic Development and Agriculture
obtains, from the Department of Finance and/or the advertising contractor, copies
of invoices and other documentation for the 13 unsupported payments, totaling
$1.3 million, included in the check history of payments in the Financial Management
System.

      5. Ensure that the Commissioner of Economic Development and Agriculture
implements contracting procedures that incorporate the competitive procurement
requirements of Title 3, Section 335-5, of the Virgin Islands Rules and Regulations.
At a minimum, the Department should solicit competitive proposals for promotional
contracts at least every 3 to 5 years, as provided in its own internal policy.



                                           9
Governor of the         Virgin Islands Response

The September 23, 1994, response (Appendix 1) to the draft report from the
Governor of the Virgin Islands expressed concurrence with Recommendations 1,2,
and 3 and nonconcurrence with Recommendations and 5.

      Recommendation 1. The response stated that the Legal Secretary and the
Commissioner of the Department of Economic Development and Agriculture provide
oversight of promotional contracts.

      Recommendation 2. The response stated that charges for expedited shipping
occur when materials require the Commissioner’s approval before advertisements are
placed in the appropriate printed media. The response further stated that the
Department’s Director of Administration and Management reviews contractors’
invoices and brings questionable items to the attention of the Commissioner.

      Recommendation 3. The response explained the circumstances under which
a special promotional letterhead and business cards for the Commissioner of
Economic Development and Agriculture were procured through the advertising
contractor.

      Recommendation 4. The response expressed nonconcurrence, stating that it
was “not the practice” of the Department of Finance to issue payments without
supporting documents. The response requested that we provide a list of the 13
unsupported payments mentioned in our report so that the Commissioner could
obtain the appropriate supporting documents.

      Recommendation 5. The response expressed nonconcurrence, stating that
except for advertising and public relations contracts, all contracts issued for tourism
promotion were “one time” contracts for specific activities. The response further
stated that there was no policy requiring competitive proposals to be solicited for
each contract every 3 to 5 years. According to the response, a contract evaluation
team reviews the performance of promotional contractors each year and “does not
make change for the sake of change” if a contractor “is producing” and this fact is
supported by the team’s evaluation. The response concluded that “notwithstanding
the above,” the Department of Economic Development and Agriculture will request
proposals for the advertising contract during the fall of 1994.

Office of Inspector General Comments
The Governor’s response was sufficient for us to consider Recommendations 1 and
2 resolved and implemented. However, Recommendations 4 and 5 are unresolved,
and additional information is needed for Recommendation 3 (see Appendix 2).

      Recommendation 3. Although the response justified the procurement of
special letterhead and business cards from the advertising contractor, our review


                                          10
showed that these items represented a small portion of the total cost for stationery
items obtained in this manner. We still believe that many of the other items could
have been acquired from more traditional sources at lower cost to the Government.

     Recommendation 4. At the time of our audit, documents to support the 13
unsupported payments were not available for our review. We provided a list of these
payments to the Department of Economic Development and Agriculture on
September 29, 1994.

       Recommendation 5. The statement in the response that “there is no
established policy that requires that competitive proposals be solicited for each
contract every 3 to 5 years” is not accurate. On February 2, 1986, the Commissioner
of the then-Department of Commerce issued the “Department Policy Statement re:
Annual Evaluation of Firms Contracted for Advertising, Public Relations and Other
Promotions and Procedures for Awarding Such Contracts.” One provision of this
policy statement was that “competitive proposals are required no more frequently
than every three years, no less frequently than five years.” During our audit, nothing
was brought to our attention to indicate that this policy statement had subsequently
been rescinded. In fact, a copy of the February 2, 1986, directive was included in a
procedures manual for the Division of Tourism that was given to us by the
Commissioner of Economic Development and Agriculture. The intent of our
recommendation is for the Department to implement this policy, since we believe
that the Department cannot objectively determine whether the Virgin Islands tourism
industry is being promoted in the most effective and economical manner by an
existing contractor if the Department does not consider competing proposals from
other potential contractors.
                                                                                APPENDIX 1
                                                                                Page 1 of  5




                           THE United STATES VIRGIN ISLANDS
                                   OFFICE OF THE GOVERNOR
                                     GOVERNMENT HOUSE
                                                 V.I. 00802
                                 Charlotte Amalie,
                                          809-774-0001


                                              September       23, 1994



 Mr. Marvin Pierce
 Acting Assistant Inspector      General
  for Audits
Office of the Inspector General
1 5 5 0 Wilson Boulevard - Suite 4 0 1
Arlington, V A 2 2 2 0 9

Dear Mr. Pierce:

     In response to the Draft Audit Report on the Division of
Tourism, Department of Economic Development and Agriculture
(EDA), Government of the Virgin Islands (V-IN-VIS-003-94) , I
submit the    following based on information    received from
Commissioner Eric E. Dawson, ED&A:
Recommendation A.1 Ensure that the Commissioner of Economic
Development and Agriculture requires the offshore offices to
submit required monthly expenditure and activity reports.
Response:      We concur.
      All offshore t o u r i s m office managers a r e required to s u b m i t
monthly reports on a timely basis to the Director of Tourism.
When certain managers fail to submit timely report, the Director
of Tourism reminds them by correspondence (see sample Attachment
A).
     These   reports are used by the Department to monitor
performance for trade show attendance, literature distribution,
sales representatives on the road, new travel agent contracts~
inquires for potential new business prospects, etc.
Recommendation A.2       Ensure that the Commissioner of Economic
Development and Agriculture requires the Office of Administration
and Management to review the offshore tourism offices' monthly
expenditure reports, reconcile the revenues from all sources with
the total expenditures of each office, and insist that the
offices control their e x p e n d i t u r e s         and   stay   w i t h i n the l i m i t of
available funds.

                                                 12
                                                                     APPENDIX 1
                                                                             5
                                                                     Page 2 of


 Mr. Marvin Pierce
 September 23, 1994
 Page         2



 Response:           We concur.
       General fund quarterly           have consistently been less
                                     allotment
 than the actual needs for each quarter due
                                        to the Government's
 overall fiscal shortfall. However, each office is mandated to
 function to meet the needs of the public in the market place.
              Where an office   did not have sufficient funds to defray the
 costs of trade shows due              to deficient quarterly allotments, t h e
 decision w a s m a d e t o f o r w a r d a cash advance from the T O u r i s m
Revolving    Fund r a t h e r t h a n canceling a   trade show/promotional
activity.
     Records are maintained for other     monies received and
utilized for specific purposes to defray expenses.
Recommendation A.3   Ensure that the Commissioner of Economic
Development an Agriculture requires employees of the offshore
tourism offices to submit travel vouchers in accordance with
Executive Order 310-1989 in order to account for travel advances
in a timely manner.
Response: We concur.
     By copy of this response, I am directing the Commissioner to
instruct and remind offshore managers about the requirement to
submit timely travel expenditure                 reports in accordance with my
Executive Order 310-1989.
Recommendation A.4    Ensure that the Department of Economic
       and Agriculture develops a plant to provide assurance
Development
that the Departments oversight responsibilities related to the
offshore tourism offices are administered effectively.
Response:           We concur.
     Enhancement of the department’s oversight responsibilities
could be augmented by accounting personnel. However, there are
overall fiscal. constraints.    Notwithstanding this situation,
current personnel on board have accepted such responsibilities.
Recommendation B.1    Ensure that the Department of                 Economic
Development and    Agriculture develops a plan that                 provides
assurance that promotional contractors comply with the              provision
of promotional contracts and that contractors invoices              and other
                                                                                         APPENDIX 1
                                                                                         Page 3 of 5



Mr. Marvin Pierce
September 23, 1994
Page 3


d o c u m e n t a t i o n are r e v i e w e d f o r s u p p o r tt r e a s o n a b l e n e s s ,   and
a l l o w a b i l i t y u n d e r the t e r m s of t h e c o n t r a c t s .

Response:        We concur.
       The Department of Economic Development and                                    Agriculture has
always
.      been guided by  the law (Title 2, Section 29 (d) VI Code)
    seeking contractors to do promotional activities for the
Division of Tourism.      There have been      annual reviews by
committees consisting of private and public citizens - the last
reviews was November 2, 1993.
       Oversight               iS in fact given to all contractors, whether they
are advertising and/or public relations, by the Legal Secretary
who is well trained and the Commissioner who is a bar-certified
lawyer.
Recommendation B.2    Ensure that the Commissioner of Economic
Development and Agriculture does not reimburse contractors for
expedited shipping charges unless expedited shipping has been
specifically requested by the Commissioner or his representiatave.
Response:        We concur.
     Any express or expedited shipping charges are the result of
materials requiring the Commissioner's immediate response prior
     placing print ads      in magazines, newspapers or other
promotional    material   for  cooperative  advertising.     The
Commissioner gives the instructions to express the materials as
needed.     Additionally, the Director of    Administration and
Management Economic Development and Agriculture, does review the
invoices and brings any questionable items to the Commissioner's
attention.
Recommendation B.3    Ensure that the Commissioner of Economic
Development and Agriculture and other Governmental agencies, as
appropriate, do not acquire items such as letterhead stationery,
business cards, and party invitations through the advertising
contractor unless the items cannot be acquired at lower cost from
regular business printing sources.
Response:       We concur.
          The Special promotional letterhead consisted of a collage of
various Virgin Islands scenic which the advertising contractor
has developed at the request of the Commissioner. The contractor
p o s s e s s e d the plates for this project and it was most cost


                                                  14
                                                                 APPENDIX 1
                                                                    4
                                                                 Page  of 5


 Mr. Marvin Pierce
 September 23, 1994
 Page 4


effective to require that the contractor print the special
promotional letterhead stationery.
      Business cards were requested by the Commissioner to be
printed in English and Japanese to aid in the promotion of
tourism in Japan. No Virgin Islands Publisher has the capability
to print KANJI and it had to be done in New York where a large
Japanese community group has businesses.         Invitations were
printed for the Annual Valentine’s Day travel Writers Luncheon in
New York. It was most cost effective to require the advertising
contractor to do the task rather than seeking a new and
unfamiliar company.
Recommendation B.4   Ensure that the Commissioner of Economic
Development and Agriculture obtains, from the Department of
Finance and/Or the advertising contractor, c~pies of invoices -d
other    documentatio n for the 13 unsupported payments, t o t a l i n g
$ 1 . 3 m i l l i o n , Lrmluded in the check   history   o f payments in the
F i n a n c i a l Managemertt S y s t e m .

Response:     We do not concur.
     It is not the practice of the Department of Finance to issue
pa~ents   Without supporttig docuxnen~. I am ~e~efore ~eWe~~ng
a listing of the 13 unsupported payments so as to ensure that the
Commissioner secures supporting documents for same.
Recommendation B.S         Ensure that the Connnission~ ~f Economic
Development        and   Agriculture implements contracting pr~ced~e=
that   incorporate     the  competitive   procurement   re~ir~en* of
Title 3,     Section 335-5,      of the Virgin Islands Rules and
Regulations.       At a    minimum,   the Department should solicit
competitive proposak for promotional contacts at least every 3
to 5 years, as provided in its own internal policy.

Response:    We do not concur.
     With the exception of the main advertising and public
relaticms  contracts, all contracts re ‘one ttien perfo~ces
which invariably are not repeated.     Many of the latter have
short closing dates.     All magazines or television ads cover
specific markets.
     The department’s contract evaluation team consist of the
Commissioner, the Director of Adm@istration and Management and
the Legal Secretary.  The review team determines whether or not
                                                         ., . . .
                                     15
                                                                             APPENDIX 1
                                                                             Page 5of 5


Mr. Marvin P i e r c e
September 23, 1994
Page 5



the contractor performs in accordance with terms and conditions
bargained for are executed.
      There is no ‘established policy       that requires that
competitive proposals be solicited for each contract every 3 to 5
years.w      Rather, a contract review team for the advertising
contracts has been established for at least seven (7) years. If
a contractor is producing and the review committee evaluation
reveals such, it does not make change for the sake of change.
     Notwithstanding the above, the Commissioner informs me
the   department will seek that request for proposals    for the
advertising contract this fall, 1994.
                                                   Cordially,                -

                                                   Alexander A. Farrelly
                                                   Governor of the Virgin Islands
cc:   Arnold van Beverhoudt, Jr.
      Regional Audit Manager
      Eric E. Dawson,                 Commissioner
      Economic D e v e l o p m e n t e n t a n d A g r i c u l t u r e
                                                            APPENDIX 2
                                                              Page 1 of 2


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status               Action Required

    A.l, A.3, and A.4    Implemented.   No further action is required.

          A.2            Management     Provide an action plan, including
                         concurs;       target dates and the title of the
                         additional     official responsible, for
                         information    reconciling revenues and
                         needed.        expenditures of the offshore
                                        tourism offices.

      B.1 and B.2        Implemented.   No further action is required.

           B.3           Management     Provide an action plan, including
                         concurs;       target dates and the title of the
                         additional     official responsible, for ensuring
                         information    that items such as letterhead
                         needed.        stationery and business cards are
                                        not acquired from the advertising
                                        contractor unless they cannot be
                                        obtained from more traditional
                                        sources at lower cost.

           B.4           Unresolved.    Reconsider the recommendation,
                                        and provide a plan for obtaining
                                        the supporting documentation for
                                        the 13 unsupported payments,
                                        totaling $1.3 million, to the
                                        advertising contractor. The plan
                                        should include target dates and
                                        titles of officials responsible for
                                        implementation.




                                  17
                                                            APPENDIX 2
                                                              Page 2 of 2

Finding/Recommendation
       Reference            Status              Action Required

          B.5            Unresolved.   Reconsider the recommendation,
                                       and provide a           plan for
                                       implementing the February 2, 1986,
                                       policy    statement requiring
                                       competitive p r o p o s a l s f o r
                                       advertising and other promotional
                                       contracts at least every 3 to
                                       5 years. The plan should include
                                       target dates and titles of officials
                                       responsible for implementation.
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:



Sending written documents to:                                  Calling:


                     Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011-671-472-7279
North Pacific Region
238 Achbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers
1-800-424-5081
TDD 1-800-354-0996
FTS/Commercial Numbers
703-235-9399
TDD 703-235-9403


HOTLINE
P.O. BOX 1593
Arlington, Virginia 22210
